May 2005
Report No. 05-018


Implementation of E-Government
Principles




             AUDIT REPORT
                                                                               Audit Report No. 05-018
                                                                                             May 2005



                                        Implementation of E-Government Principles
                                        Results of Audit
Background and Purpose                  The FDIC has made progress in implementing various initiatives that are
of Audit                                consistent with E-Government principles and implementing guidance
                                        from OMB. In addition, the Corporation has taken steps to develop a
E-Government is generally defined       comprehensive E-Government strategic plan that will be linked to
as the use of Internet-based            associated corporate goals and objectives in areas addressed by OMB’s
technologies by government              Scorecard and the E-Government Act guidance. Absent such a strategic
agencies to provide information and     plan, with appropriate linkages to corporate goals and objectives, the
services to citizens, businesses, and   FDIC risked not efficiently and effectively planning, coordinating, and
other governmental agencies. In         implementing E-Government initiatives.
2001, the President initiated several
government reform efforts,
                                        During our review, the Corporation established a Corporate Performance
collectively known as the
                                        Objective in December 2004 to develop and implement a new
President’s Management Agenda
                                        E-Government strategy. The strategy will promote a paperless corporate
(PMA), to make the federal
government more results-oriented,       environment in which the majority of transactions and data and document
efficient, and citizen-centered.        storage are handled electronically. The FDIC also established a working
                                        group that has developed a draft project plan to guide development of the
Expanded E-Government is one            E-Government strategic plan. At this time, the draft project plan does not
initiative in the PMA. The goals of     specifically address either performance measures or desired outcomes for
the PMA and E-Government                the E-Government initiatives.
initiatives are to eliminate
redundant systems and significantly     After we completed our review, the Corporation established a milestone
improve the government’s quality        of December 31, 2005 for the approval of a new E-Government strategic
of customer service for citizens and    plan.
businesses. The Office of
Management and Budget (OMB) is          Recommendations and Management Response
using its Executive Branch
Management Scorecard (Scorecard)        The actions taken by the Corporation during and after our review,
to measure agency success in            together with planned actions, adequately address our finding. Thus, we
executing E-Government initiatives.     are not making any recommendations. We suggest, however, that in
                                        completing the new E-Government strategic plan, the Corporation be
The original audit objective was to
                                        mindful of OMB’s guidance that E-Government performance measures
determine whether the FDIC
                                        must be linked to the Corporation’s Annual Performance Plan and
(1) adequately implemented
E-Government principles in its          Strategic Plan and desired outcomes of E-Government initiatives must be
operations and information              identified.
exchange with insured financial
institutions and (2) complied with       Expanded E-Government Areas Monitored by OMB
applicable portions of Government
Paperwork Elimination Act.               •  Establishment of an Enterprise Architecture
However, we limited our work to          •  Preparation of Business Cases for Major Systems
obtaining an understanding of the            Investments
FDIC’s progress on E-Government          • Remediation of Security Weaknesses
initiatives because the FDIC had
not yet developed a comprehensive
                                         • Certification and Accreditation of Systems
E-Government strategic plan.             • Establishment of a Process and Plan for Implementing
                                             E-Government Initiatives
                                         Source: OMB’s Scorecard.
                           TABLE OF CONTENTS


BACKGROUND                                                        1

RESULTS OF AUDIT                                                  4

THE FDIC’S PROGRESS IN IMPLEMENTING                               4
E-GOVERNMENT
    Enterprise Architecture                                       4
    Business Cases for Major Systems Investments                  6
    Remediation of Security Weaknesses                            6
    Certification and Accreditation of Systems                    7
    Other Corporate Efforts to Promote E-Government               8
    Process and Plan for Implementing E-Government Initiatives    9
    Conclusion                                                   10

CORPORATION COMMENTS AND OIG EVALUATION                          11

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                    12

APPENDIX II: EXPANDED ELECTRONIC GOVERNMENT                      14


FIGURE
    The FDIC’s Enterprise Architecture Framework                  5
Federal Deposit Insurance Corporation                                                            Office of Audits
801 17th Street NW, Washington, DC 20434                                            Office of Inspector General


DATE:                                      May 24, 2005

MEMORANDUM TO:                             Michael E. Bartell
                                           Chief Information Officer and
                                           Director, Division of Information Technology


FROM:                                      Russell A. Rau
                                           Assistant Inspector General for Audits

SUBJECT:                                   Implementation of E-Government Principles
                                           (Report No. 05-018)

The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General (OIG) has
completed an audit of FDIC’s implementation of E-Government principles. The objective of
our audit was to determine whether the FDIC (1) adequately implemented E-Government
principles in its operations and information exchange with FDIC-insured financial institutions
and (2) complied with applicable portions of the Government Paperwork Elimination Act
(GPEA). As discussed in detail in Appendix I, we limited the scope of our audit to obtaining
an understanding of the Corporation’s progress on E-Government initiatives after we
determined that the FDIC had not developed an E-Government strategic plan.

BACKGROUND

E-Government is generally defined as the use of Internet-based technologies by government
agencies to provide information and services to citizens, businesses, and other governmental
agencies. E-Government initiatives are increasingly being leveraged as technological
advancements and rising citizen expectations set a standard for a more accessible, reliable,
and streamlined government. Further, E-Government has been the subject of initiatives
established and guidance issued by the President and the Office of Management Budget
(OMB) and in legislation passed by the Congress in December 2002. The initiatives,
guidance, and legislation, which are not always applicable to the FDIC, represent prudent
business practices (see discussion of applicability in Appendix I).


President’s Management Agenda

In 2001, the President initiated several government reform efforts, collectively referred to as
the President’s Management Agenda (PMA), to make the federal government more results-
oriented, efficient, and citizen-centered. The PMA includes five broad initiatives:

•    Human Capital
•    Competitive Sourcing
•    Improving Financial Performance
•   Expanded E-Government
•   Budget and Performance Integration

The goal of the PMA and E-Government initiatives is to eliminate redundant systems and
significantly improve the government’s quality of customer service for citizens and
businesses. E-Government initiatives are (1) citizen-centered rather than bureaucratic or
agency-centered, (2) results-oriented by producing measurable improvements for citizens,
and (3) market-based by actively promoting innovation.

OMB E-Government Strategy

In February 2002, OMB issued the E-Government Strategy, designating 24 high-profile
initiatives to lead the government’s transition to E-Government. The 24 initiatives are
divided among 4 key portfolios:

    •   Government to Citizen initiatives provide one-stop, on-line access to information
        and services to citizens.
    •   Government to Business initiatives help business interact efficiently and effectively
        with the federal government.
    •   Government to Government initiatives forge new partnerships among levels of
        government. These partnerships should also facilitate collaboration between levels of
        government and empower state and local governments to deliver citizen services more
        effectively.
    •   Internal Efficiency and Effectiveness initiatives apply industry’s best practices to
        government.

E-Government Act of 2002

The President signed the E-Government Act of 2002 (Act) on December 17, 2002; most of
the Act’s provisions became effective on April 17, 2003. The purpose of the Act was to
enhance the management and promotion of electronic government services and processes by
establishing a federal Chief Information Officer (CIO) within the OMB and by establishing a
broad framework of measures that require using Internet-based information technology (IT)
to enhance citizen access to government information and services. The Act, in essence,
codified the PMA, added new initiatives to previously established statutory requirements, and
required federal agencies to follow OMB guidance on E-Government.




                                                2
OMB E-Government Act Guidance

In August 2003, OMB issued guidance on specific actions required under the Act.
Specifically, according to Implementation Guidance for the E-Government Act of 2002,
agencies are expected to do the following:

•       Define and deliver performance increases that matter to citizens – Agencies are to
        develop performance measures for E-Government that are both citizen- and productivity-
        related. The measures must be linked to the agency’s Annual Performance Plan and
        Strategic Plan and be used to meet agency objectives, strategic goals, and statutory
        mandates in E-Government and IT.

•       Communicate policies within and across agencies – The agency CIO will serve as the
        primary official for assisting agency heads in implementing the Act and OMB guidance.

•       Comply with section 508 to ensure accessibility – Agencies are to continue to comply
        with section 508 of the Rehabilitation Act of 1973.1

Other agency requirements include: making public regulations and rulemaking processes
electronically accessible, conducting assessments of effects on privacy issues in relation to
new IT investments and on-line information collections, and establishing and operating IT
training programs for personnel.

OMB Executive Branch Management Scorecard

The OMB Executive Branch Management Scorecard (Scorecard) tracks how well the
departments and major agencies are executing the five PMA initiatives. The OMB Scorecard
employs a simple stoplight scoring system common today in well-run businesses, using green
for success, yellow for mixed results, and red for unsatisfactory results.

With regard to expanded E-Government, OMB is monitoring progress in the following areas
to measure agencies’ success.

    •    Establishment of an Enterprise Architecture
    •    Preparation of Business Cases for Major Systems Investments
    •    Remediation of Security Weaknesses
    •    Certification and Accreditation of Systems
    •    Establishment of a Process and Plan for Implementing E-Government Initiatives

The specific standards for the expanded E-Government element of the Scorecard are in
Appendix II. As of December 31, 2004, the OMB Scorecard showed that many of the
departments and major agencies are making progress toward implementing the initiatives.



1
 The FDIC is not required by law to comply with the provisions of the Rehabilitation Act of 1973 but does
voluntarily comply.


                                                       3
The FDIC’s Division of Information Technology and CIO Council

The FDIC’s Division of Information Technology (DIT) has overall responsibility for the
Corporation’s IT activities and the E-Government initiatives. Also, the FDIC has established
a CIO Council to advise the CIO on all aspects of adoption and use of IT at the FDIC. The
Council has taken a leadership role in developing a strategy for and implementing the
Corporation’s E-Government initiatives.


RESULTS OF AUDIT

The FDIC had made progress in implementing various initiatives that are consistent with
E-Government principles and implementing guidance from OMB. In addition, the
Corporation had taken steps to develop a comprehensive E-Government strategic plan that
will be linked to associated corporate goals and objectives in areas addressed by OMB’s
Scorecard and the E-Government Act guidance. Absent such a strategic plan, with
appropriate linkages to corporate goals and objectives, the FDIC risked not efficiently and
effectively planning, coordinating, and implementing E-Government initiatives.


THE FDIC’S PROGRESS IN IMPLEMENTING E-GOVERNMENT

The FDIC had issued an IT strategic plan, had developed a high-level E-Government
Strategy, and implemented, or was in the process of implementing, activities and information
systems that were consistent with E-Government principles and that addressed PMA
initiatives. However, the Corporation had not developed a comprehensive E-Government
strategic plan that included, or that was linked to, goals and objectives in areas outlined in the
E-Government Act. Further, the Corporation had not finalized a process to implement
appropriate E-Government initiatives. As a result, the FDIC risked not efficiently and
effectively implementing the initiatives.


Enterprise Architecture

   Development of agency enterprise architectures will assist in building a
   comprehensive business-driven blueprint of the entire federal government.
   The development of this framework has and will continue to enable the federal
   government to identify opportunities to leverage technology; reduce
   redundancy; facilitate information sharing; establish a direct relationship
   between IT and mission/program performance; and maximize IT investments
   to better achieve mission outcomes.

   Source: OMB’s Expanding E-Government Results Report.



During 2002, the FDIC began developing an enterprise architecture (EA) to establish a
corporate-wide roadmap for achieving the FDIC’s mission within an efficient IT



                                                  4
environment. The FDIC’s E-Government strategy is a component of the EA that focuses on
service delivery for the FDIC’s internal and external customers. The FDIC’s EA Framework
is shown below.


The FDIC’s Enterprise Architecture Framework




Source: The FDIC’s DIT.



The FDIC had taken the following actions in developing and implementing an EA:

       •   Developed an EA Blueprint that defines, at a high level, the FDIC's current and
           target EAs, including a security architecture.
       •   Drafted a Security Standards Profile that identifies the security standards specific
           to the security services specified in the EA.
       •   Established a Technical Review Group for reviewing new and upgraded IT
           security solutions.
       •   Developed an EA Technical Reference Model that identifies and describes
           security services throughout the Corporation.
       •   Created checklists to facilitate the analysis of information security associated with
           IT investments.
       •   Issued formal policies for the FDIC’s EA and Capital Planning and Investment
           Management programs.
       •   Continued the oversight of EA products and processes and evaluated proposed IT
           investments for alignment with the information security architecture principles
           contained in the EA Blueprint.
       •   Initiated a pilot implementation of an EA Repository product to integrate
           EA-related products and information currently housed in various FDIC systems
           and data sources and establish an automated, comprehensive, accurate, and
           dynamic baseline for the EA.
       •   Implemented an on-line publication, The Architect, to communicate news and
           information related to the EA program internally for FDIC employees.



                                                 5
Business Cases for Major Systems Investments

           Business cases have clearly defined vision and outcomes, including
           security linked to the department’s or agency’s mission through their
           enterprise architecture with benefits far outweighing the costs.

           Source: OMB’s Expanding E-Government Results Report.



The FDIC had established a Capital Investment Review Committee (CIRC) that reviews all
IT initiatives with capital outlays of more than $3 million. The CIRC also reviews certain
other projects that cost less but are considered critical to the FDIC. The CIRC determines
whether a proposed investment is appropriate for consideration by the FDIC Board of
Directors and oversees approved investments throughout their life cycle. The FDIC Capital
Investment policy requires an executive sponsor for each IT capital investment to be
responsible for establishing a link between the recommended investment and the FDIC's
strategic goals and objectives. Further, the policy requires project teams to develop a project
proposal (i.e., a business case) that documents the business needs of the project. Among
other things, the business case must demonstrate financial soundness and alignment with the
EA and provide support for the organization's business needs and the users' needs.

In February 2004, the FDIC created the CIO Council as one of the primary governance
mechanisms for IT management. The CIO Council is composed of senior IT-focused
executives from each of the FDIC’s business line divisions. The Council is responsible for
advising the CIO in developing an enterprise perspective on corporate systems; assisting in
the development of an overall IT strategic plan; and reviewing IT initiatives, projects,
priorities, and resources. The CIO Council is responsible for setting the strategic direction
for IT and, in concert with the CIRC, is responsible for reviewing and recommending IT
investments by the Corporation.


Remediation of Security Weaknesses

          Agency submits quarterly status reports to OMB regarding remediation of
          IT security weaknesses, and the Inspector General verifies the
          effectiveness of the security remediation process.

          Source: Expanded Electronic Government Scorecard Criteria.



The FDIC uses the Internal Risks Information System (IRIS) as its primary management tool
for monitoring and tracking the remediation of agency information security weaknesses.
Specifically, the FDIC uses IRIS to monitor and track the resolution of Government
Accountability Office and FDIC Office of Inspector General audits, reviews, evaluations, and
surveys. The system contains Plans of Action and Milestones (POA&M) information
(including findings, conditions, recommendations, corrective actions, and milestones) related



                                                 6
to information security weaknesses and tracks this information by audit, review, and
evaluation. The FDIC assigned the Office of Enterprise Risk Management (OERM) primary
responsibility for administering IRIS. The FDIC’s divisions and offices, in coordination with
OERM, are responsible for maintaining current, accurate, and complete information in IRIS
for their respective business areas. OERM uses IRIS to generate periodic progress reports
and briefings to FDIC management on the status of agency information security weaknesses.

The CIO is providing OMB with quarterly POA&M reports on the FDIC’s progress in
correcting its program-level security weaknesses. In August 2004, the FDIC began preparing
system-level POA&Ms for its major applications and general support systems2 to track
security weaknesses identified through self-assessment reviews. We noted in our 2004
Federal Information Security Management Act (FISMA) evaluation report that we were not
able to perform sufficient testing to fully evaluate the system-level POA&Ms because they
had been recently implemented. We plan to perform a more detailed analysis of the FDIC’s
system-level POA&Ms as part of our 2005 FISMA evaluation work.


Certification and Accreditation of Systems

                Certification and accreditation ensures that information systems’
                security controls are implemented correctly and operating as
                intended and that an agency official has authorized operation of the
                system based on those security controls.

                Source: National Institute of Standards and Technology.


As of September 30, 2004, the FDIC had established a baseline level of assurance for its
major applications and general support systems by performing certifications and
accreditations at a low level of assurance. At that time, the FDIC recognized that some of its
major applications and general support systems required a higher degree of security
assurance in order to be considered fully certified and accredited in accordance with the
National Institute of Standards and Technology (NIST) standards and guidelines. As of
January 2005, the FDIC expected to fully certify and accredit all major applications and
general support systems within 15 months in accordance with NIST standards and guidelines.




2
  A major application requires special attention to security due to the risk and magnitude of harm resulting from
the loss, misuse, or modification of or unauthorized access to information in the application. A general support
system is an interconnected set of information resources under the same direct management control and that
shares common functionality. Such a system normally includes hardware, software, data, applications,
communications, and people.


                                                         7
Other Corporate Efforts to Promote E-Government

The FDIC had made significant strides in using technology to promote safety and soundness
in the banking industry, protect consumers’ deposits, and quickly resolve bank failures. To
reduce reporting burdens and to share information more quickly and conveniently, the FDIC
had instituted several projects to promote E-Government. Synopses of various FDIC
activities follow.

   •   FDICconnect. FDICconnect was designed for FDIC-insured institutions as an
       Internet channel to conduct business and exchange information with the FDIC.
       FDICconnect is designed to provide a secure e-business transaction channel to
       support implementation of the GPEA, which requires agencies to provide on-line
       consumer and business alternatives for paper-based processes when practicable. The
       FDIC plans to expand the number of FDICconnect applications, making it the
       standard electronic gateway for interactions with all insured institutions.

   •   Virtual Supervisory Information on the Net (ViSION). ViSION provides
       automated support for many aspects of bank supervision, including application
       tracking, case management, safety and soundness examinations, IT examinations, off-
       site monitoring, large bank analysis, management reporting, workload management,
       and security. ViSION allows FDIC examiners to operate more efficiently by working
       with electronic rather than paper-based information.

   •   FDICSales.com. The FDICSales Web site provides customers with the convenience
       of on-line access 24-hours a day to FDIC loan sales events. Customers can register
       their preferences for the types of loans they are interested in purchasing, receive
       electronic notification of sales matching their preferences, access detailed information
       concerning the loans offered for sale, and submit bids to purchase the loans. Through
       FDICSales.com, potential bidders can also review financial and other detailed
       information and submit bids on a failing bank or thrift and on loan pools not sold
       within a bank at the time of failure.

   •   Call Report Modernization. Reports of Condition and Income (Call Report) are a
       widely used source of timely and accurate financial data regarding a bank’s condition
       and the results of operations. The Call Report Modernization effort is an interagency
       initiative that targets improvements in the compilation, collection, validation,
       integration, and distribution of financial and demographic data related to FDIC-
       insured institutions. The initial focus of the project has been on modernizing the
       process through which the FDIC and other federal regulators acquire Call Report
       data. The FDIC has taken a leadership position in the definition and implementation
       of the Call Report Modernization initiative, collaborating closely with the Board of
       Governors of the Federal Reserve System and the Office of the Comptroller of the
       Currency.

   •   Corporate Human Resource Information System (CHRIS). CHRIS includes a
       new Web-based, employee self-service time and attendance system based on a



                                                8
       commercial off-the-shelf system designed specifically for use with the National
       Finance Center payroll system. CHRIS will provide the FDIC with an integrated
       system that supports all existing human resources functions with a focus on data
       sharing, state-of-the-art computing technology, and the ability to grow and change
       with the Corporation's business needs.


Process and Plan for Implementing E-Government Initiatives

               Agencies have established a process and plan for
               implementing all of the E-Government initiatives rather
               than creating redundant or agency-unique IT projects.

               Source: Expanded Electronic Government Scorecard
               Criteria.


As discussed earlier, the FDIC had taken initiatives and developed systems that were in line
with E-Government principles; however, these systems and initiatives were separate
development efforts rather than the fulfillment of a comprehensive plan. In September 2002,
the FDIC published the FDIC E-Government Strategy, which defined the FDIC’s strategy for
E-Government service delivery and presented the critical supporting factors required to
implement E-Government initiatives. However, this document did not discuss goals and
objectives or desired outcomes.

Key to managing any successful IT program is establishing IT goals and objectives,
measuring performance, and evaluating and reporting results to senior management.
Measuring performance against established goals and objectives is a fundamental principle of
the Government Performance and Results Act (GPRA) of 1993. In addition, OMB Circular
No. A-130, Management of Federal Information Resources, requires agencies to institute
performance measures and management processes that monitor actual performance against
expected results.

The FDIC submitted a status report to OMB documenting the FDIC’s progress in achieving
E-Government. Specifically, the FDIC’s June 26, 2003 progress report to OMB stated that
the Corporation had completed development of an E-Government strategic plan that defines
the FDIC’s broad E-Government vision and mission, the FDIC’s objective in developing
E-Government, and the foundations needed to establish E-Government and barriers to its
acceptance and implementation. However, in December 2004, DIT officials noted that the
strategic plan had not been updated since it was prepared in September 2002 and that this
initial effort had been general in nature. Consistent with the DIT officials’ views, we found
that the 2002 strategic plan did not include specific goals for the FDIC’s E-Government
initiatives, the resources needed, strategies to be followed, assigned responsibilities, or




                                                9
performance measures for tracking accomplishments. Further, the plan was not supported by
or linked to corporate goals and objectives established under GPRA or the Corporate
Performance Objectives (CPO).3

In August 2004, the FDIC issued the Information Technology Strategic Plan: 2004–2007 (IT
Strategic Plan). The IT Strategic Plan is one tool that the Corporation uses to set its strategic
direction for IT. The purpose of the IT Strategic Plan is to align IT with the FDIC’s mission,
vision, and business goals and to establish the overall goals and direction for the IT Program
at the FDIC. The IT Strategic Plan describes how IT helps accomplish the FDIC’s mission.
The IT Strategic Plan also outlines many of the projects and programs, such as ViSION and
FDICSales.com, that support the E-Government initiative and considers IT support for
“Expanded Electronic Government” as a means to operate more efficiently and effectively.
Like the FDIC E-Government Strategy, the IT Strategic Plan does not specifically identify
measures for implementing the expanding E-Government initiatives and does not contain
goals, performance measures, objectives, and desired outcomes consistent with those
initiatives.

During our review, the Corporation established a CPO in December 2004 to develop and
implement a new E-Government strategy. The strategy will promote a paperless corporate
environment in which the majority of transactions and data and document storage are handled
electronically. The FDIC also established a working group that developed a scoping
statement that was approved by the CIO Council and a draft project plan to guide
development of the E-Government strategic plan. The scoping statement addresses
performance measures related to only one initiative -- promoting a paperless environment.
The project plan does not specifically address either performance measures or desired
outcomes for the E-Government initiatives.

Conclusion

The FDIC had been actively identifying, evaluating, and implementing various policies,
procedures, and technologies that are consistent with the goals and principles of the
E-Government initiatives and implementing OMB guidance. However, the FDIC needed to
better coordinate and measure its efforts through the timely development of a strategic plan
that is linked to corporate objectives and goals specifically addressing E-Government. The
plan, objectives, and goals would assist the Corporation in making steady progress in various
aspects of E-Government, minimizing redundant systems or processes, and undertaking
initiatives that are cost-beneficial.

At our exit conference, DIT officials indicated that the Corporation has established a
milestone of December 31, 2005 for the CIO Council to approve a new E-Government
strategic plan.


3
 The FDIC initiated the CPOs in 2002, which set an overall direction for the Corporation and go beyond the
operational goals established in the Corporation’s Annual Performance Plan sent to the Congress and OMB.
The CPOs are established each year during the annual corporate planning and budget process, subject to final
approval by the Chairman.


                                                       10
The actions taken by the Corporation during and subsequent to our review, together with its
planned actions, adequately address our finding. Thus, we are not making any
recommendations. We suggest, however, that in completing the new E-Government strategic
plan, the Corporation be mindful of the August 2003 OMB E-Government Act guidance that
E-Government performance measures must be linked to the Corporation’s Annual
Performance Plan and Strategic Plan and desired outcomes of E-Government must be
identified.


CORPORATION COMMENTS AND OIG EVALUATION

We provided FDIC management with a draft of this report on April 14, 2005. The draft
report included two recommendations associated with establishing an E-Government
strategic plan. Subsequent to issuance of the draft report, we held an exit conference with
management to discuss our findings and proposed recommendations. As discussed earlier in
this report, management provided us with additional information regarding several actions it
had taken during and after our review, as well as planned actions, that adequately addressed
our concerns regarding the need for an E-Government strategic plan. As a result, we made
appropriate changes to the final report, including eliminating the recommendations. We
provided management with a revised version of the draft report reflecting those changes and
a written response was not required. DIT notified the OIG that it had no official comments
on the revised draft report.




                                               11
                                                                              APPENDIX I

                    OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether the FDIC (1) adequately implemented
E-Government principles in its operations and information exchange with insured financial
institutions and (2) complied with applicable portions of the GPEA. The audit was
conducted from December 2004 through March 2005 in accordance with generally accepted
government auditing standards. The scope of our audit work was limited to obtaining an
understanding of the Corporation’s progress on E-Government initiatives because the FDIC
had not developed a comprehensive E-Government strategic plan. We used areas in OMB’s
Scorecard tracking system to assess the FDIC’s progress in implementing E-Government.

Regarding GPEA, the FDIC has developed several applications and initiatives that have been
designed to reduce paperwork or streamline processes internally and externally. Because we
limited the scope of our audit, we did not determine whether these initiatives fully comply
with the intent of the Act. However, we verified that the FDIC submitted its progress report
to OMB, describing the Corporation’s progress in complying with GPEA.

To accomplish our objective, we reviewed numerous documents including:

   •   Public Law 107-347, also referred to as the E-Government Act of 2002;
   •   OMB’s E-Government Strategy, dated February 27, 2002;
   •   Public Law 105-277, Government Paperwork Elimination Act;
   •   OMB’s E-Government Strategy, dated April 2003;
   •   OMB’s Implementation Guidance for the E-Government Act of 2002, dated
       August 2003;
   •   OMB’s Expanding E-Government, Partnering for a Results-Oriented Government,
       dated December 2004;
   •   OMB’s Executive Branch Management Scorecard;
   •   Public Law 103-62, Government Performance and Results Act;
   •   OMB Circular No. A-130, Management of Federal Information Resources;
   •   the FDIC E-Government Strategy, dated September 2002;
   •   FDIC’s Information Technology Strategic Plan: 2004-2007; and
   •   FDIC’s CIO Council E-Government Strategy Project Plan Draft.


Applicability of Initiatives, Guidance, and Legislation to the FDIC

In conducting this audit we considered the PMA, portions of which were codified in the
E-Government Act of 2002 enacted December 17, 2002. While the PMA may not be binding
on the FDIC, many of the provisions of the E-Government Act are binding on the FDIC. Our
review focused on title II of the Act, Federal Management and Promotion of Electronic
Government Services, because of its applicability to this audit. Under the Act, OMB has
authority to issue guidance to implement the Act’s provisions, and such guidance is, in
general, binding on the FDIC. Accordingly, OMB’s August 2003 Implementation Guidance


                                              12
                                                                                   APPENDIX I

for the E-Government Act of 2002 appears to be binding on the FDIC. OMB’s February
2002 E-Government Strategy predates the E-Government Act and does not reference any
other statutory or regulatory authorities for its issuance and thus is not legally binding on the
FDIC. OMB’s Scorecard has been used to track the progress of various departments and
agencies, but has not included the FDIC.

While OMB’s pronouncements discussed above may or may not be legally binding on the
FDIC, we believe they represent prudent business practices that the FDIC should consider in
its E-Government efforts. Accordingly, we employed those pronouncements, particularly the
Scorecard analysis, in performing this audit.

GPRA, Reliance on Computer-Generated Data, Fraud and Illegal Acts, and
Management Controls

We tested compliance with the GPRA by determining whether the FDIC had established
performance measures related to E-Government initiatives. The limited nature of the audit
did not require testing internal controls or reviewing the reliability of computer-processed
data obtained from the FDIC’s computerized systems. Such data was not significant to our
audit findings and conclusions. During the audit, we were alert for instances of fraud and
illegal acts, but found none.




                                                 13
                                                                                                                                                                     APPENDIX II

                                                             EXPANDED ELECTRONIC GOVERNMENT


Agency:                                                      Agency:                                                         Agency:
•   Has an Enterprise Architecture linked to the Federal     •   Has an Enterprise Architecture linked to the FEA rated      •   Does not have an Enterprise Architecture linked to the
    Enterprise Architecture (FEA) rated “effective” using        “effective by using OMB’s EA Assessment tool (score of          FEA that “effective” by using OMB’s EA Assessment tool
    OMB’s EA Assessment tool (score of “3” on both EA            “3” on both EA Maturity and Degree of Alignment);               (score of “3”);
    Maturity and Degree of Alignment);                       •   Has acceptable business cases (security, measures of        •   Does not have acceptable business cases (security,
•   Has acceptable business cases (security, measures            success linked to the EA, program management, risk              measures of success linked to EA, program
    of success linked to the Enterprise Architecture,            management, and cost, schedule and performance                  management, risk management, and cost, schedule and
    program management, risk management, and cost,               goals) for more than 50% of its major systems                   performance goals) for more than 50% of its major
    schedule, and performance goals) for all major               investments;                                                    systems investments;
    systems investments;                                     •   Submits security reports to OMB that document               •   Has not submitted Security Reports to OMB that
•   Has demonstrated using EVM or operational                    consistent security improvement and either:                     document consistently security improvement and cannot
    analysis, cost and schedule overruns, and                    o 80% of all IT Systems are properly secured; OR                demonstrate that:
    performance shortfalls, that average less than 10%           o Inspector General verifies the effectiveness of the           o 80% of all IT systems are properly secured; OR
    for all major IT projects;                                      Department-wide IT Security Plan of Action and               o Inspector General has verified the effectiveness of
•   Submits quarterly status reports in remediating IT              Milestone Remediation Process:                                  the Department-wide IT Security Plan of Action and
    security weaknesses;                                     •   Has cost and schedule overruns, and performance                    Milestone Remediation Process;
•   Inspector General verifies the effectiveness of the          shortfalls, that average less than 30% for all major IT     •   Has cost and schedule overruns, and performance
    Department-wide IT Security Remediation Process;             projects; AND                                                   shortfalls, that average 30% or more; OR
•   Has 90% of all IT systems properly secured (certified    •   Has established a process and plan for implementing all     •   Has not established a process and plan for
    and accredited); AND                                         of the appropriate E-Gov initiatives rather than creating       implementing all of the appropriate E-Gov initiatives
•   Has implemented all of the appropriate E-Gov                 redundant or agency unique IT projects                          rather than creating redundant or agency unique IT
    initiatives rather than creating redundant or agency                                                                         projects.
    unique IT projects.

•    To maintain green status, agency:
•    Has ALL IT systems certified and accredited;
•    Has IT systems installed and maintained in
     accordance with security configurations; AND
•    Has consolidated and/or optimized all agency
     infrastructure to include providing for continuity of
     operations.

Source: Reproduced from OMB.
Note: Earned Value Management (EVM) is operational analysis of cost overruns and performance shortfalls to average less than 10 percent of an IT portfolio.




                                                                                          14
